'I


~
       On September 21, 1993, Dr.




        r      .     t     h subject
                                      -
                            CLOSEOUT FOR M93090048




                                                       a program officer in the Division of
                                    n the Directorate for Social, Behavioral and Economic
Sciences, provided OIG withpa letter he had received from the complainant,
           who is a faculty member in the Department of m
University. The complainant was an ad hoc reviewer for proposal-
                                                                          a


                                   e and faculty member in the Department o
                                                                                Y
                                                                                  t I,entitled
                                                            ' The proposal was submitted b
                                                 The complainant alleged that the subject's
at
proposal contained text plagiarized from the draft of a paper a scientist had presented at a
scientific meeting. In response to the subject's request the scientist had given the subject a
copy of the manuscript. The scientist had not, however, given the subject permission to
reproduce its text.

       OIG compared the scientist's unpublished paper with the subject's proposal and found
one block of text in the subject's proposal, approximately 29 lines of text, that, appeared to
have been copied from the scientist's paper. The block of text in the subject's proposal
contained text drawn from five separate sections of the scientist's paper. The copied text was
interspersed with text original to the proposal. None of the copied text was offset from the
remaining proposal text, nor was it accompanied by a citation to the complainant's paper.
OIG also found three other sections of text in the proposal, approximately 15 lines, that were
copied from three sections of the scientist's paper. Each of the three proposal sections was
accompanied by a citation to the scientist's paper. Two of the sections were indented from the
other proposal text, while the text in the remaining proposal section was not. The
bibliography accompanying the proposal contained a reference to the scientist's paper.

        In response to OIG's inquiry, the subject said that he had scanned the scientist's paper
onto a computer disk and had then incorporated the text that was eventually reduced to one
large block of text into the introduction of his proposal. Initially he had placed a citation to
the source in an opening sentence; however, he had inadvertently removed that sentence when
editing the proposal draft. He had postponed working on the introduction because it was so
large and, by the time he returned to it, he had forgotten that the text in question had been
taken from the work of another. He then edited and paraphrased the draft text as if it were
original to him. This, he explained, was why the copied text in the five sections was
interspersed with his own writing. He characterized his actions as "sloppy editing." He said
that the reason the three remaining sections all contained citations to the sceintist's paper but
only two were offset was because he was following convention in his field.


                                      Page 1 of 3                              M93-48
                             CLOSEOUT FOR M93090048

        OIG concluded that the subject's responses did not sufficiently explain why the text
copied from five sections of the scientist's paper and found as one block of text in the subject's
proposal was not offset or cited to the source document. OIG concluded that an investigation
was warranted. At the subject's institution's request, OIG deferred its own investigation into
the allegation of plagiarism until the institution had completed its own. This institution's
procedure for misconduct in science requires that, upon receipt of an allegation, an inquiry be
performed before the initiation of an investigation is considered. Inquiries can lead to
findings of misconduct and investigations are only performed under special circumstances.

        With regard to the block of proposal text that contained copied material from five
sections of the scientist's paper, the institution's inquiry committee said that the subject told
them that his usual practice was to write copied text out by hand and to include the
appropriate quotation marks and citations. However, in this case, he had been experimenting
with a new technology, a scanner, and did not follow his usual practice. The committee found
there was no reason to doubt the subject's statements. The committee concluded that the
subject had correctly explained and followed his field's convention for handling the copied
text found in the remaining three sections. The committee stated that the facts were supported
by clear and convincing evidence and that, although the subject's actions were improper, he
had, at worst, acted negligently or carelessly, but not with a level of intent that justified a
finding of misconduct. The committee members said, "along with his carelessness under
pressure of time, we believe it was his use of a new technology with which he was unfamiliar
(the scanner), enabling a new experiment in a new technique in writing, that led to his
submission of the NSF proposal with improperly copied material . . . ." OIG later learned that
the scanner had been purchased a few months before the proposal was written. Hence, it is
likely that the use of the scanner was new to the subject.

        The officials that reviewed the report concurred with its findings and conclusions, but
stated, "the careless behavior on the part of [the subject] is inconsistent with the normal
expectation that attention and care would be given when using an unfamiliar technology."
The report was forwarded to the university provost for action. The provost sent a memo to the
director of university research stating that although the inquiry was concluded, his "concern
about the issue/complaint [had not] ended." He informed OIG that he met with the subject to
express his "dismay and to warn against any repetition of that lund of misappropriation of
intellectual property." He said he was "convinced that [the subject] was aware of the
consequences."

        OIG accepted the institution's inquiry report and concluded that the subject's copying
of text from a source document without offset or attribution was careless and sloppy. These
actions, however, were mitigated by his correct use of offset and attribution for text copied
from the same source document in three other places in his proposal OIG concluded that a
recommendation for a finding of misconduct in science by NSF was not warranted in this

                                       Page 2 of 3                             M93-48
                             CLOSEOUT FOR M93090048

case. Without the mitigating factors, OIG believes the subject's actions would probably be
considered misconduct in science, specifically plagiarism.

        At OIG's request, the subject amended NSF's copy of his proposal with new proposal
pages in which he had correctly offset and attributed the copied text. OIG verified that the
corrected pages were incorporated into the proposal jacket. OIG concluded that the
institution's inquiry and the process of correcting the proposal pages provided the subject with
adequate reminders of the scientific community's expectation for proper attribution. OIG
concluded that there was no need to recommend to NSF additional actions to protect the
Government's interests.

       OIG accepted the institution's report and closed this case. No further action will be
taken in this case.



cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                      Page 3 of 3
